0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of the
Chamber of Commerce of the United States of
America, Coalition for Litigation Justice, Inc., and
American Property Casualty Insurance Association as
Amici Curiae Supporting Petitioners in 21-348,
Johnson & Johnson and Johnson & Johnson
Consumer Companies, Inc. v. Lynn Fitch, Attorney
General of the State of Mississippi, ex rel. the State of
Mississippi, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 4th day of October, 2021:
E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com

Counsel for Petitioners
Scott Grant Stewart
Mississippi Attorney General's Office
P.O. Box 220
Jackson, MS 39205-0220
(601) 359-5563
scott.stewart@ago.ms.gov

Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite l 02

, 1300 I Street, NW, Suite 400E

Franklin Square

www.beckergallagher.com

Cincinnati, Ohio 45249

. Washington, DC 20005

Lawrence S. Ebner
Atlantic Legal Foundation
1701 Pennsylvania Ave NW, Suite 200
Washington, DC 20006
(202) 729-6337
lawrence.ebner@atlanticlegal.org

Counsel for Atlantic Legal Foundation
David Meir Zionts
Covington & Burlington LLP
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
dzionts@cov.com

Counsel for Pharmaceutical
Manufacturers of America

Research

and

Andrew R. Varco
Jennifer B. Dickey
U.S. Chamber Litigation Center
1615 H Street NW
Washington, DC 20062
(202) 463-5337

Counsel for the Chamber of Commerce of the United
States of America
Kenneth Stoller
American Property Casualty Insurance Association
555 12th Street NW
Suite 550
Washington, DC 20004

Counsel for American Property Casualty Insurance
Association

Mark Behrens
Shook, Hardy & Bacon L.L.P.
1800 K Street NW
Suite 1000
Washington, DC 20006

Counsel for Coalition for Litigation Justice, Inc.
Ethan P. Davis
Counsel of Record
Matthew V.H. Noller
King & Spalding LLP
50 California Street
Suite 3300
San Francisco, CA 94111
(415) 318-1200
edavis@kslaw.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

OG-ti,,b

Notary <t:c tJ,
[seal]

4 1 if() d(

la«&=
'

